DOE/IG-0434




          AUDIT
         REPORT                WASTE INVENTORY DATA
                                   AT OAK RIDGE
                                AND SAVANNAH RIVER




                                         DECEMBER 1998


  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
   OFFICE OF AUDIT SERVICES
                                       December 18, 1998


MEMORANDUM FOR THE SECRETARY

FROM:          Gregory H. Friedman
               Inspector General

SUBJECT:       INFORMATION: Audit Report on "Waste Inventory Data at Oak Ridge and
               Savannah River"

BACKGROUND

The Oak Ridge and Savannah River Operations Offices are responsible for maintaining reliable and
accurate waste inventories to ensure effective waste management operations at their sites. As of
April 1998, the Oak Ridge Reservation stored about 105,000 containers of hazardous, low-level,
and low-level mixed waste, with a volume of 72,500 cubic meters. As of May 1998, the Savannah
River Site stored about 13,500 containers of hazardous, low-level, and low-level mixed waste, with
a volume of 14,500 cubic meters. The objective of this audit was to determine whether the
hazardous, low-level, and low-level mixed waste inventories at the Oak Ridge Reservation and the
Savannah River Site were accurate and reliable in Fiscal Year (FY) 1998.

RESULTS OF AUDIT

The volume of hazardous, low-level, and low-level mixed waste stored at the Oak Ridge
Reservation was overstated in FY 1998 inventory records, and the locations of many waste
containers at the Savannah River Site were recorded inaccurately or incompletely. As a result, the
Department could not rely on the waste inventory data at the Oak Ridge Reservation to make
informed decisions regarding the amount of waste to be treated or disposed. Additionally, the
Department incurred unnecessary costs adjusting waste inventory data for management reports at
the Oak Ridge Reservation and locating waste containers for treatment or disposal at the Savannah
River Site.

We recommended that the Acting Assistant Secretary for Environmental Management establish
general requirements for tracking and reporting waste inventories at the sites. We also
recommended that the Manager, Oak Ridge Operations Office direct contractor personnel to
perform an inventory of stored waste and establish adequate procedures to ensure that waste
inventory records are kept current, accurate, and complete at all Oak Ridge Reservation sites.
Further, we recommended that the Manager, Savannah River Operations Office ensure that the
planned inventory of stored waste is completed, and that contractor personnel record the storage
location for all containers and update inventory data when containers are moved.
                                                 -2-


MANAGEMENT REACTION

Management concurred with the audit recommendations and planned to take appropriate actions.
However, the Oak Ridge Operations Office did not agree that programmatic or project decisions were
affected by the errors discovered during the audit.

Due to the large amount of mixed and low-level waste stored at the Oak Ridge Reservation, we
believe that Departmental waste treatment and disposal decisions could be adversely impacted by
waste inventory errors discovered during the audit. The Department's FY 1999 Environmental
Management Budget Request showed that as of September 30, 1997, the Oak Ridge Reservation
stored 67 percent of the Department's mixed waste and 42 percent of the low-level waste.

Attachment

cc: Acting Deputy Secretary
    Under Secretary
WASTE INVENTORY DATA AT OAK RIDGE AND
SAVANNAH RIVER


TABLE OF
CONTENTS



                Overview

                Introduction and Objective......................................................... 1

                Conclusions and Observations ................................................. 2


                Waste Volume and Location

                Details of Finding ......................................................................3

                Recommendations and Comments ...........................................6


                Appendix

                Scope and Methodology ............................................................8
Overview

INTRODUCTION AND   The Department made a commitment in its FY 1998 Performance
OBJECTIVE          Agreement with the President to reduce the life-cycle costs of cleanup
                   and dispose of waste generated during past and current activities. To
                   meet the commitment, reliable waste inventory data is needed so that the
                   Department can accurately account for waste from generation to
                   disposal.

                   The Oak Ridge and Savannah River Operations Offices are responsible
                   for maintaining reliable and accurate waste inventories to ensure
                   effective waste management operations at their sites. As of April 1998,
                   each of the three Oak Ridge Reservation sites [East Tennessee
                   Technology Park (ETTP), Y-12 Plant (Y-12), and Oak Ridge National
                   Laboratory (ORNL)] operated a unique waste inventory system. The
                   systems were used to track about 105,000 containers of hazardous, low-
                         1                            2
                   level, and low-level mixed waste, with a volume of 72,500 cubic
                   meters. As of May 1998, the Savannah River Site tracked about 13,500
                   containers of hazardous, low-level, and mixed waste, with a volume of
                   14,500 cubic meters.

                   In April 1990, the Office of Inspector General issued Report
                   DOE/IG-0284, Management Information Systems for Environmental
                   Compliance Activities. The audit concluded that the Department did
                   not have a comprehensive database of information for management's use
                   in demonstrating environmental compliance. Instead, the Department
                   and its contractors developed and maintained many different information
                   systems to track and report environmental compliance activities. As a
                   result, the Department could not effectively oversee field office and
                   contractor activities nor provide reasonable assurance to the President,
                   the Congress and the public that environmental concerns were promptly
                   identified and addressed.

                   The objective of this audit was to determine whether the hazardous,
                   low-level, and mixed waste inventories at the Oak Ridge Reservation
                   (Oak Ridge) and the Savannah River Site (Savannah River) were
                   accurate and reliable in FY 1998.

                   ______________________________
                   1
                     Low-level waste has a wide range of characteristics, but most of it contains small
                   amounts of radioactivity in large volumes of material.
                   2
                     Low-level mixed waste is low-level radioactive waste that also contains hazardous
                   components. Throughout this report, low-level mixed waste will be referred to as
                   mixed waste.




Page 1                                                   Waste Inventory Data at Oak Ridge
                                                                       and Savannah River
CONCLUSIONS AND   The volume of hazardous, low-level, and mixed waste stored at Oak
OBSERVATIONS      Ridge was overstated in FY 1998 inventory records, and the locations of
                  many waste containers at Savannah River were recorded inaccurately or
                  incompletely. These conditions occurred because the Department had
                  not established minimum requirements for tracking waste at the sites, the
                  Oak Ridge Operations Office had not established adequate tracking
                  procedures, and the Savannah River Operations Office did not adhere to
                  its established procedures. As a result, the Department could not rely on
                  the waste inventory data at Oak Ridge to make informed decisions
                  regarding the amount of waste to be treated or disposed. Additionally,
                  the Department incurred unnecessary costs adjusting waste inventory
                  data for management reports and locating waste containers for treatment
                  or disposal.

                  The audit identified issues that management should consider when
                  preparing its yearend assurance memorandum on internal controls.




                                                            /S/
                                                    Office of Inspector General




Page 2                                            Waste Inventory Data at Oak Ridge
                                                                and Savannah River
WASTE VOLUME AND LOCATION


Waste Volumes Were    The volume of hazardous, low-level, and mixed waste stored at Oak
Overstated            Ridge was overstated in FY 1998 inventory records. We tested the
                      accuracy of the volumes of waste shown in inventory records for
                      565 containers (337 in Oak Ridge and 228 in Savannah River) and
                      determined that the volumes were overstated for 34 containers. The
                      discrepancies identified for nine containers at Y-12 and two containers
                      at Savannah River were minimal. However, the discrepancies identified
                      for 23 containers at ETTP were significant. Specifically, we determined
                      that 23 of 114 containers (20 percent) selected for testing at ETTP did
                      not exist at the time of our inventory.

                      Oak Ridge Operations Office and contractor personnel acknowledged
                      that the volume of waste shown in the inventory records was overstated.
                      ETTP waste management personnel stated that the inventory was
                      routinely adjusted for empty containers, duplicate barcode numbers, and
                      waste which had been incinerated, before reports were generated for
                      management's use.

                      We examined ETTP's March 1998 and June 1998 inventory reports to
                      determine if all required adjustments had been made and the waste
                      volumes were accurate with respect to the discrepancies identified
                      during the audit. The March 1998 report was generated before we
                      performed the audit test and the June 1998 report was generated after
                      we discussed the test results with ETTP management. We determined
                      that the June 1998 report was adjusted to correct the discrepancies
                      identified during the audit. However, the March 1998 report was
                      overstated by about 4,000 cubic meters, or 13 percent.

                      The Oak Ridge management and integration contractor was in the
                      process of awarding a subcontract to develop a uniform system at all
                      three sites to control waste tracking operations. The contractor plans to
                      have a new set of integrated procedures in place by February 1999 and
                      the capability to perform 100-percent inventories using barcode
                      technology by August 1999. The contractor’s actions should improve
                      the accuracy of inventory data and could significantly reduce errors in
                      future waste tracking data.

                      In addition to overstatements in the waste volumes, container locations
Container Locations   were inaccurately or incompletely recorded for 126 of 565 containers
Were Inaccurate or    tested. We could not verify the location or size of 110 of 113 low-level
Incomplete            waste containers selected for testing at Savannah River because they
                      were densely packed into waste vaults or storage boxes and were not


Page 3                                                                     Details of Finding
                            readily accessible. At Oak Ridge, we found five containers in
                            locations other than shown in the inventory records. At Savannah
                            River, we found 47 containers in locations other than shown,
                            46 containers without any location recorded, and 28 containers with
                            incomplete storage locations recorded in the system.

                            Savannah River Operations Office began work on a new hazardous
                            and mixed waste tracking system in early FY 1998. The new waste
                            tracking system is scheduled to be operational in the second quarter
                            of FY 1999. To ensure that data in the new tracking system is
                            accurate, hazardous and mixed waste will be inventoried and
                            locations recorded using barcode technology. Implementation of the
                            new system could significantly reduce errors in future waste tracking
                            data.

The Department Needs        One of the foundations of the Department's environmental
Accurate Data to Evaluate   management program is strong financial and managerial control,
                            including the maintenance of comprehensive and accurate waste
Performance and Project
                            inventories. The Office for Environmental Management uses the
Future Requirements
                            inventory data to evaluate progress towards meeting the Department's
                            performance goals and to forecast budget requirements. Without
                            accurate information on the amount of waste in storage and awaiting
                            treatment or disposal, the Department may not be able to accurately
                            track its progress toward meeting the commitment established in the
                            FY 1998 Performance Agreement. Additionally, management
                            decisions for cleanup of contaminated sites could be adversely
                            impacted by inaccurate waste inventory data.

                            Inventory data were inconsistent among the sites because the
Department Did Not
                            Department did not establish minimum requirements for tracking and
Establish Minimum
                            reporting waste inventories throughout the complex. In the absence
Requirements
                            of Departmentwide guidance, each site developed unique tracking
                            and reporting processes. At ETTP, the inventory data included
                            detailed information which identified the building, row, and location
                            within the row where each container was located. By comparison,
                            the inventory data at ORNL identified only the building or storage
                            pad where the container was located. At Savannah River, the
                            inventory data varied according to the type of waste involved. For
                            example, the data identified the building and bay or row for
                            hazardous and mixed waste containers, but only the waste vault or
                            storage box where the container was located for low-level waste
                            containers.


Page 4                                                                        Details of Finding
Oak Ridge Had Not         At Oak Ridge, procedures were not established to delete waste from the
Established Adequate      inventory after it was sent to an on-site treatment facility and
                          incinerated. Additionally, management had to establish a process for
Waste Tracking
                          reviewing and adjusting Oak Ridge inventory data prior to generating
Procedures
                          waste volume reports. However, this review and adjustment process
                          had not identified or corrected all errors that impacted stored waste
                          volumes.

                          At Savannah River, adequate procedures had been developed; however,
Savannah River Did Not    waste management personnel did not consistently adhere to the
Follow Procedures         procedures. For example, site procedures required that waste be
                          tracked to a building and bay or row, but personnel often moved the
                          containers without updating waste inventory locations. Also, Savannah
                          River personnel did not record storage locations for most hazardous
                          waste containers contaminated with chemicals, metals, and pesticides.

                          As a result of the problems identified at Oak Ridge, the Department
Department Could Not      could not rely on waste inventory data to make informed decisions
Rely on Waste Inventory   regarding the amount of waste to be treated or disposed of. Also, the
Data and Incurred         Department incurred unnecessary costs adjusting waste inventory data
Unnecessary Costs         for management reports at Oak Ridge and locating containers of waste
                          for treatment or disposal at Savannah River. However, we could not
                          quantify the amount of time spent or the unnecessary costs incurred
                          because Oak Ridge personnel did not keep track of the amount of time
                          spent adjusting waste inventory data and Savannah River personnel did
                          not keep track of time spent searching for waste containers.




Page 5                                                                       Details of Finding
RECOMMENDATIONS       We recommend that:

                      1. The Acting Assistant Secretary for Environmental Management
                         establish general requirements for tracking and reporting waste
                         inventories at the sites, including the type and amount of
                         information required;

                      2. The Manager, Oak Ridge Operations Office direct contractor
                         personnel to perform an inventory of stored waste and establish
                         adequate procedures to ensure that waste inventory records are
                         kept current, accurate, and complete at all Oak Ridge sites; and

                      3. The Manager, Savannah River Operations Office ensure that the
                         planned inventory of stored waste is completed, and that contractor
                         personnel record the storage location for all containers and update
                         inventory data when containers are moved.
MANAGEMENT REACTION
                      The Office of Environmental Management and the Oak Ridge and
                      Savannah River Operations Offices concurred with the finding and
                      recommendations, and planned to take appropriate corrective actions.
                      However, the Oak Ridge Operations Office did not agree that
                      programmatic or project decisions were affected by the errors
                      discovered during the audit. Also, the Oak Ridge Operations Office
                      stated that the March 1998 report represented only one-quarter of the
                      year and was not indicative of pervasive errors, or errors spanning the
                      entire year.

AUDITOR COMMENTS      We consider management’s reaction to be responsive to the audit
                      recommendations. However, we disagree with the Oak Ridge
                      Operations Office that the waste volume errors identified at Oak Ridge
                      would not impact programmatic or project decisions. Due to the large
                      amount of mixed and low-level waste stored at Oak Ridge, we believe
                      that Departmental waste treatment and disposal decisions could be
                      adversely impacted by waste inventory errors found at the site.
                      Specifically, data in the Department's FY 1999 Environmental
                      Management Budget Request showed that as of September 30, 1997,
                      Oak Ridge stored 67 percent of the Department's mixed waste and 42
                      percent of the low-level waste.




Page 6                                                 Recommendations and Comments
         We acknowledge that the errors found were only representative of
         one-quarter of the year. However, during the exit conference, the
         management and integration contractor stated that it had not reviewed
         all waste inventory data or corrected all systemic errors identified
         during the audit. Therefore, the volume of waste shown in the
         inventory records continues to be overstated.




Page 7                                   Recommendations and Comments
Appendix

SCOPE         The audit was performed from March 27, 1998, to August 28, 1998, at
              the Oak Ridge Reservation in Oak Ridge, Tennessee and the Savannah
              River Site, near Aiken, South Carolina. The scope of our audit was
              limited to tests of inventory data used to track and report containers of
              hazardous, low-level, and mixed waste in April and May 1998.

              The table below identifies the number of waste containers tracked as
              stored waste at the time of our audit and the number of containers
              randomly selected for audit review. Each of the three Oak Ridge
              facilities developed a unique waste inventory system while waste
              inventory systems at Savannah River were developed based on waste
              types.

                                                                Containers           Sample
                                   Entity                      in Inventory           Size

                                 Oak Ridge
                                   ETTP                            90,138             114
                                   Y-12                            11,900             113
                                  ORNL                              2,982             110
                                                                  105,020             337

                            Savannah River
                                                                                         3
                           Low-Level Waste                        11,219              113
                         Hazardous/Mixed Waste                     1,892              108
                            Hazardous Waste                          441               91
                              PCB Waste                               26               26
                                                                  13,578              338

                                      Total                       118,598             675

METHODOLOGY   To accomplish the audit objective, we:

              • Reviewed waste inventory tracking and reporting procedures at Oak
                Ridge and Savannah River;



              3
                  The location and size of 110 containers could not be determined.




Page 8                                                               Scope and Methodology
         • Identified automated systems used for tracking and reporting
           containers of hazardous, low-level, and mixed waste;

         • Selected random samples of containers and tested the accuracy and
           completeness of data recorded for each container selected;

         • Evaluated adjustments made by Oak Ridge personnel to waste
           inventory data; and

         • Determined how waste inventory data was used by management.

         The audit was performed in accordance with generally accepted
         Government auditing standards for performance audits and included
         tests of internal controls and compliance with laws and regulations to
         the extent necessary to satisfy the audit objective. Accordingly, we
         assessed significant internal controls related to waste inventory data at
         Oak Ridge and Savannah River. Because our review was limited, it
         would not necessarily have disclosed all internal control deficiencies
         that may have existed at the time of our audit.

         In completing the audit, we tested the accuracy and reliability of
         computer-processed waste inventory data at Oak Ridge and Savannah
         River. As discussed in the body of the report, we concluded that the
         data were not accurate or reliable.

         We held an exit conference with Environmental Management, Oak
         Ridge, and Savannah River officials on November 19, 1998.




Page 9                                                 Scope and Methodology
                                                                               IG Report No. DOE/IG-0434

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                Department of Energy Human Resources and Administration Home Page
                                     http://www.hr.doe.gov/ig

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.

                                   This report can be obtained from the
                                       U.S. Department of Energy
                              Office of Scientific and Technical Information
                                               P.O. Box 62
                                      Oak Ridge, Tennessee 37831
